NOT PRECEDENTIAL

DLD-179

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 21-1192
AMRO ELANSARI,
Appellant
v.
MAITE RAGAZZO, (Individual Capacity);
15TH JUDICIAL DISTRICT; CHESTER COUNTY
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Civil Action No. 2-20-cv-06170)
District Judge: Honorable Joel H. Slomsky
Submitted on Appellee’s Motion for Summary Affirmance
May 13,2021
Before: JORDAN, KRAUSE, and PHIPPS, Circuit Judges
(Opinion filed: May 24,2021)
OPINION*

PER CURIAM

* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not
constitute binding precedent.
---- —
———---------- - .

Appellant Amro Elansari, proceeding pro se and in forma pauperis, appeals from
an order by the United States District Court for the Eastern District of Pennsylvania
dismissing his complaint for failure to state a claim. For the reasons that follow, we will
summarily affirm.
I.

Because we write primarily for the benefit of the parties, we recite only the
important facts and procedural history. Elansari was arrested and convicted in 2015 for
various marijuana-related offenses. He was again arrested in 2017 and was sentenced to
probation, which he began serving in Centre County, Pennsylvania. At some point in
2018, Elansari moved, and his probation was transferred to Chester County,
Pennsylvania. Elansari alleged that after he moved, defendant Maite Ragazzo, a Chester
County probation officer, told him that the office was going to continue to drug test
probationers regardless of Pennsylvania’s 2016 law legalizing the use of medical
marijuana. Elansari states that he moved to Philadelphia because of this conversation.
In December 2020, Elansari filed a complaint under 42 U.S.C. § 1983 alleging that
his equal protection rights were violated by Ragazzo’s comments and that the county
maintained an unconstitutional policy as to probationers who used marijuana for medical
purposes.1 Elansari seeks declaratory judgment, compensatory and punitive damages,
and injunctive relief against Ragazzo, the 15th Judicial District, and Chester County.2

1 In June 2020, the Supreme Court of Pennsylvania held that a state parole office’s policy
of prohibiting probationers from the active use of medical marijuana violated
2

u

Counsel for defendants filed a motion to dismiss under Federal Rule of Civil
Procedure 12(b)(6) for failure to state a claim. Elansari opposed the motion and filed a
motion to amend the complaint to add unnamed supervisors to the action. The District
Court dismissed Elansari’s complaint pursuant to § 1915(e)(2)(B)(ii) explaining that his
claims for declaratory and injunctive relief were moot, that the 15th Judicial District and
Chester County were entitled to Eleventh Amendment immunity, that Elansari had failed
to state an equal protection claim, and that the claim against Ragazzo was time-barred.3
The District Court denied Elansari’s motion to amend his complaint, except to the extent
that he moved to strike claims related to comments made by a state court judge, and
concluded that further amendment would be futile. Elansari timely filed his notice of
appeal.
II.
We have jurisdiction pursuant to 28 U.S.C. § 1291. Our review of the District
Court’s dismissal under § 1915(e)(2)(B)(ii) is plenary. See Allah v. Seiverling. 229 F.3d

Pennsylvania law. Gass v. 52nd Judicial Dist.. Lebanon Ctv.. 232 A.3d 706, 715 (Pa.
2020).
2 Elansari subsequently filed a state court action against Ragazzo to recover
compensatory damages for his move to Philadelphia. He alleged that his filing and court
proceedings made the state court judge “furious” and stated that the judge informed him
that he was going to report the matter to the Centre County probation authorities.
Elansari’s § 1983 complaint initially alleged that the state court’s actions were
impermissible retaliation that violated the Pennsylvania Human Relations Act. Elansari
subsequently moved to strike any aspect of his complaint related to the state court
proceedings, and the District Court granted the motion.
3 The District Court also found that it did not have jurisdiction over any state law claims,
although those appear to have been dismissed pursuant to Elansari’s motion.
3

220,223 (3d Cir. 2000). Dismissal is appropriate where a complaint has not alleged
“sufficient factual matter, accepted as true, to ‘state a claim to relief that is plausible on
its face.”’ Ashcroft v. Iqbal. 556 U.S. 662,678 (2009) (quoting Bell Atl. Corp. v.
Twomblv, 550 U.S. 544, 570 (2007). We accept all factual allegations in the complaint
as true and construe those facts in the light most favorable to the plaintiff, Fleisher v.
Standard Ins. Co.. 679 F.3d 116,120 (3d Cir. 2012), and because Elansari is proceeding
pro se, we construe his complaint liberally, see Erickson v. Pardus. 551 U.S. 89, 94
(2007) (per curiam). We may summarily affirm if the appeal fails to present a substantial
question. See Murray v. Bledsoe. 650 F.3d 246,247 (3d Cir. 2011) (per curiam); 3d Cir.
L.A.R. 27.4; I.O.P. 10.6.
Ill
We agree with the District Court’s assessment that Elansari’s complaint was
insufficient to state a civil rights action against defendants. As the District Court
explained, Elansari’s claims for unspecified prospective relief against the 15th Judicial
District and Chester County were mooted by his move to Philadelphia and the
corresponding transfer of his parole, as he “no longer has any present interest affected by
[their] policies].” Weinstein v. Bradford, 423 U.S. 147, 148 (1975). Moreover, because
Elansari has not alleged that he intends to move back to Chester County or that the parole
office has continued its alleged policy following the Pennsylvania Supreme Court’s 2020
decision, he cannot demonstrate that the alleged wrong is “capable of repetition yet
evading review.” Hamilton v. Bromley. 862 F.3d 329, 335 (3d Cir. 2017) (capable-of4

IM

repetition doctrine is narrow mootness exception that “applies only in exceptional
situations” where “(1) the challenged action is in its duration too short to be fully litigated
prior to cessation or expiration, and (2) there is a reasonable expectation that the same
complaining party will be subject to the same action again.”) (quoting Spencer v. Kemna.
523 U.S. 1, 17(1998)).
We further agree with the District Court that the claims for damages against the
Fifteenth Judicial Circuit and Chester County are barred by the Eleventh Amendment.
See Havbarger v. Lawrence Ctv. Adult Prob. & Parole. 551 F.3d 193, 198 (3d Cir. 2008)
(“Pennsylvania’s judicial districts, including their probation and parole departments, are
entitled to Eleventh Amendment immunity.”) (citing Benn v. First Judicial Dist. of Pa..
426 F.3d 233,240-41 (3d Cir. 2005)); Lavia v. Pa. Den’t of Corr.. 224 F.3d 190,195 (3d
Cir. 2000) (“The Pennsylvania legislature has, by statute, expressly declined to waive its
Eleventh Amendment immunity.”).
Additionally, we agree with the District Court that Elansari’s allegations regarding
defendant Ragazzo’s comments failed to establish either a constitutional violation or a
plausible equal protection claim. See Kaucher v. County of Bucks. 455 F.3d 418,423 (3d
Cir. 2006) (“To state a § 1983 claim, a plaintiff must demonstrate the defendant, acting
under color of state law, deprived him or her of a right secured by the Constitution or the
laws of the United States.”). Setting aside Elansari’s failure to allege that he obtained a
medical marijuana card, the ability to access medical marijuana is not a “right secured by
the Constitution or the laws of the United States.” Id. (citing Am. Mfrs. Mut. Ins. Co. v.
5

y\r

Sullivan. 526 U.S. 40, 49-50 (1999)); see Gonzales v. Raich. 545 U.S. 1,22 (2005)
(Controlled Substances Act provisions criminalizing manufacture, distribution, or
possession of marijuana to intrastate growers and users of marijuana for medical purposes
did not violate Commerce Clause); United States V. Oakland Cannabis Buyers’
Cooperative, 532 U.S. 483,490 (2001) (holding that there is no medical-necessity
exception to the Controlled Substances Act’s prohibitions on manufacturing and
distributing marijuana); Raich v. Gonzales. 500 F.3d 850, 866 (9th Cir.2007) (no
fundamental right to use marijuana prescribed by a physician to alleviate pain).4
We also agree with the District Court that Elansari’s claim fails under a traditional
theory of equal protection because he has not shown that he obtained a medical marijuana
card or, even if he had, that an individual who uses medical marijuana is a member of a
protected class. See Keenan v. City of Phila.. 983 F.2d 459,465 (3d Cir. 1992).
Moreover, the District Court correctly determined that Elansari’s claim fails under a
class-of-one theory because he has not demonstrated that he qualified for or obtained a
medical marijuana card, was not charged with violating his probation for using marijuana
for medical reasons, and did not allege he was treated differently from other probationers
who obtained or intended to obtain a medical marijuana card. See Phillips v. Ctv. of

4 This Court has rejected Elansari’s arguments in prior cases alleging similar violations of
his rights arising out of his use of marijuana. See Elansari v.United States. 823 F. App’x
107, 111 (3d Cir. 2020) (per curiam) (marijuana users are not members of a protected
class); Elansari v. United States, 615 F. App’x 760, 762 (3d Cir. 2015) (per curiam)
(Elansari unlikely to show success on claim that marijuana prohibition is
unconstitutional).
6

lo

Allegheny, 515 F.3d 224,244 (3d Cir. 2008) (To prevail under a class-of-one theory,
plaintiff bears the burden of showing he “was intentionally treated differently from others
similarly situated . . . and that there is no rational basis for the difference in treatment.”).
The District Court did not abuse its discretion in denying Elansari leave to amend his
complaint where the court aptly evaluated his response to the defendants’ motion to
dismiss and his proposed amended complaint and concluded that it would not cure the
defects from his complaint. See Grayson v. Mawiew State Hosp.. 293 F.3d 103,108 (3d
Cir. 2002).s
Because the appeal does not present a substantial question, we grant the motion for
summary affirmance and will affirm the judgment of the District Court.

5 The District Court also correctly determined that the claims against Ragazzo were timebarred and that Elansari did not raise a particularized claim against the unknown
supervisors alleged in his proposed amended complaint. Elansari’s state law claims were
dismissed upon Elansari’s own motion to strike, given that the claims were rooted in the
dismissed allegations.
7

"‘NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits attorneys of record
and parties in a case (including pro se litigants) to receive one free electronic copy of all documents filed
electronically, if receipt is required by law or directed by the filer. PACER access fees apply to all other users. To
avoid later charges, download a copy of each document during this first viewing.
Third Circuit Court of Appeals
Notice of Docket Activity
The following transaction was filed on 07/21/2021
Case Name:
Amro Elansari v. Maite Ragazzo, et al
Case Number:
21-1192
Document(s): https://ecf.ca3.uscourts.aov/docs1/003013912008?uid=f412cccab553aa2d
Docket Text:
ORDER (SMITH, Chief Judge, MCKEE, AMBRO, CHAGARES, JORDAN, HARDIMAN, GREENAWAY JR.,
SHWARTZ, KRAUSE, RESTREPO, BIBAS, PORTER, MATEY and PHIPPS, Circuit Judges) denying Petition En
Banc and Panel Rehearing filed by Appellant Amro A. Elansari. Krause, Authoring Judge. (TMM)
Notice will be electronically mailed to:
Ms. Kate Barkman, District/Bankruptcy Clerk
Guy A. Donatelli
Amro A. Elansari
Katherine E. LaDow

The following document(s) are associated with this transaction:
Document Description:
Court Order Filed
order_court_072121 .pdf
Original Filename:
Electronic Document Stamp:
[STAMP acecfStamp_ID=1107201326 [Date=07/21/2021] [FileNumber=4844472-0]
[721ff257a7b7f3a4fad2af2ecab505c85c36139f57fe6819ea48c784728449bc3f68850468ae00ef3cf2206b9c2b70648e
9061 ab69d 1 q7f826ddf20c7a6d4c31 ]]

ELANSARI v. RAGAZZO et al

Doc. 12

Case 2:20-cv-06170-JHS Document 12 Filed 01/29/21 Page 1 of 11

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
AMRO ELANSARI,
Plaintiff,
CIVIL ACTION NO. 20-CV-6170

v.

MAITE RAGAZZO, et al.,
Defendants.

MEMORANDUM
JANUARY 29,2021

SLOMSKY, J.

Plaintiff Amro Elansari, a frequent litigator in this Court,1 filed this pro se civil action
pursuant to 42 U.S.C. § 1983, against Probation Officer Maite Ragazzo, “15th Judicial District”
and Chester County. The Court understands Elansari to be claiming that the 15th Judicial
District, which administered his probation for a time, maintained an unconstitutional policy as to
probationers who used marijuana for medical purposes. He seeks leave to proceed in forma
pauperis. The Court will grant Elansari leave to proceed in forma pauperis and dismiss his
Complaint for the following reasons.
I.

FACTUAL ALLEGATIONS AND PROCEDURAL HISTORY
In 2015, Elansari was arrested for and convicted of various marijuana-related offenses in

Pennsylvania. See Commonwealth v. Elansari, CP-14-CR-0000408-2015 (C.P. Centre). It
appears his probation was revoked in 2017, apparently as a result of a conviction on new drug
charges, and a new sentence was imposed. Id.; see also Commonwealth v. Elansari, CP-14-CR-

i See

Elansari v. Commonwealth of Pa., Civ. A. No. 21-0141, 2021 WL 288792 (E.D. Pa. Jan.
28, 2021).___
1

Cl

Dockets.Justia.com

Case 2:20-cv-06170-JHS Documents Filed 01/29/21 Page 2 of 11

0001625-2016 (C.P. Centre). Elansari’s claims in the instant civil action concern his sentence of
probation, the administration of which had been transferred from Centre County to Chester
County for a period of time. (ECF No. 2 at 3.)2
Elansari notes that, in 2016, Pennsylvania legalized use of marijuana for medical
purposes and began issuing “medical cannabis cards” in 2018. (Id. at 1.) He alleges that he had
a conversation in 2018 with Defendant Ragazzo, a probation officer in Chester County. (Id.) At
the time, Elansari was on probation. (Id.) He claims that Ragazzo told him “we no care what the
law is - we gonna do what we want” which Elansari interpreted as meaning that “they
(probation) didn’t care whether or not the pot cards were coming out - the were still going to
drug test and fail people for pot no matter what.” (Id.) Elansari alleges this was a violation of
his equal protection rights, and that he moved to Philadelphia as a result. (Id.)
Elansari “filed an action to recover compensatory damages for the move.” (Id.) On
December 22, 2020, a Magisterial District Judge rejected Elansari’s claims and entered judgment
in favor of the Defendants.3 Elansari v. Ragazzo, MJ-15101-CV-0000083-2020 (Chester Cty.).
Elansari alleges that the Judge “was furious” that Elansari “had ‘outsmarted the system’” and
was going to report the matter to Centre County probation because he thought Elansari had
defrauded the system by moving to Philadelphia. (ECF No. 2 at 1.) Elansari describes this as
retaliation. (Id. at 2.)
Elansari asserts two claims. The first is pursuant to § 1983 for a violation of his equal
protection rights based on the conversation he had with Officer Ragazzo and what he alleges was

2 The Court adopts the pagination supplied by the CM/ECF docketing system.
3 It is unclear at this time whether the judgment in Elansari’s state case precludes his claims in
the instant case. See Turner v. Crawford Square Apartments III, L.P., 449 F.3d 542, 548 (3d Cir.
^01-6)-(discussing-claim'preclusion-):--------------------------------------------------------------------------2

Case 2:20-cv-06170-JHS Document 12 Filed 01/29/21 Page 3 of 11

the policy of the 15th Judicial District as to probationers who obtained a card permitting them to
use medical marijuana. In support of that claim, Elansari relies on a 2020 opinion issued by the
Pennsylvania Supreme Court, which he attached to his Complaint as an exhibit. (Id. at 3 & 823.) In that case, the Pennsylvania Supreme Court concluded that the policy of the Lebanon
County Court of Common Pleas — which essentially prohibited marijuana use among
probationers even if the probationer had a medical marijuana card and put the burden on the
probationer to prove medical necessity for marijuana use to avoid a probation violation — was
unenforceable because it was “contrary to the immunity accorded by Pennsylvania’s Medical
Marijuana Act.” Gass v. 52nd Judicial Dist., Lebanon Cty., 232 A.3d 706, 715 (Pa. 2020).
Elansari’s second claim is for retaliation in alleged violation of the Pennsylvania Human
Relations Act based on the statements the Magisterial District Judge made in dismissing
Elansari’s state case. (Id. at 5.) Elansari seeks unspecified damages, declaratory relief, and
injunctive relief. (Id. at 6.)
Counsel entered his appearance for the Defendants, although they have not yet been
served, and moved to dismiss the claims against Defendant Ragazzo based on qualified
immunity for her 2018 comments, and because no other conduct is attributed to her that supports
a claim. (ECF No. 5-2.) Elansari responded that Defendant Ragazzo is not entitled to qualified
immunity because when the law changed in Pennsylvania, “probation officers should have
known to change their policy on cannabis” and failure to do so was an equal protection violation.
(ECF No. 6 at 2-3.) He also clarifies that he had his discussion with Ragazzo in January 2018, at
a time when he was anticipating obtaining a medical marijuana card, and that he therefore had to
“move to avoid the equal protection violation for 2 years.” (Id. at 4-5; see also id. at 7
(“Defendant does not deny that they told the Plaintiff they were not going to respect the pot cards

3

C3

Case 2:20-cv-06170-JHS Document 12 Filed 01/29/21 Page 4 of 11

in January of 2018 when the Plaintiff informed Ragazzo of a meeting scheduled with a PA
Medical Cannabis Program certified doctor to obtain a card.”) )
Elansari also moved to withdraw his claims based on statements made by the Magisterial
District Judge who dismissed his case in state court. (Id. at 8 (noting that Elansari “intends to
move to strike all portions of the complaint pertaining to the most recent small claims hearing”));
(ECF No. 7 (moving to “strike the parts of the Complaint pertaining to Judge Maisano/Judge
Nistico”).) In doing so, he clarified that the remainder of his complaint is “about (1) Ragazzo’s
violation in January 2018 and (2) 15th Judicial Districts unconstitutional policy as a whole.”
(ECF No. 7 at 1.) Elansari also moved to amend his complaint to remove the portions pertaining
to the resolution of his claims in state court and the related judicial statements, and to add a
discussion of the law on qualified immunity. (ECF No. 8.) His attached proposed amended
complaint names as Defendants Ragazzo, the 15th Judicial District, and “Chester County John
Doe 1-4 (Supervisors).” (Id.) He again raises an equal protection claim based on the January
2018 discussion with Ragazzo and his decision to move to Philadelphia based on that discussion.
(Id. at 2.)
II.

STANDARD OF REVIEW
The Court grants Elansari leave to proceed in forma pauperis because it appears that he is

not capable of pre-paying the fees to commence this civil action. Accordingly, 28 U.S.C. §
1915(e)(2)(B)(ii) applies, which requires the Court to dismiss the Complaint if it fails to state a
claim. The Court’s screening of Elansari’s Complaint under § 1915(e)(2)(B)(ii) and
consideration of Ragazzo’s Motion to dismiss under Federal Rule of Civil Procedure 12(b)(6) are
governed by the same standard, see Tourscher v. McCullough, 184 F.3d 236, 240 (3d Cir. 1999).
which requires the Court to determine whether the complaint contains “sufficient factual matter,

4

CM

Case 2:20-cv-06170-JHS Document 12 Filed 01/29/21 Page 5 of 11

accepted as true, to state a claim to relief that is plausible on its face.” Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009) (quotations omitted). Conclusory allegations do not suffice. Id.
Additionally, the Court may dismiss claims based on an affirmative defense if the affirmative
defense is obvious from the face of the complaint. See Wisniewski v. Fisher, 857 F.3d 152, 157
(3d Cir. 2017). As Elansari is proceeding pro se, the Court construes his allegations liberally.
Higgs v. Att’y Gen., 655 F.3d 333, 339 (3d Cir. 2011).
III.

DISCUSSION
The Court will grant Elansari’s “Motion to Strike.” Accordingly, the only claims at issue

are those against Officer Ragazzo, the 15th Judicial District and Chester County based on Officer
Ragazzo’s statements, which led Elansari to leave Chester County for Philadelphia for at least
two years because he intended to procure a card to use medical marijuana and feared that use of
medical marijuana would subject him to a probation violation.
A. Claims for Declaratory and Injunctive Relief are Moot
To the extent Elansari seeks unspecified prospective relief, his claims are moot. Article
HI of the Constitution, which limits the power of federal courts to addressing cases and
controversies, “does not permit federal courts to decide moot cases.” Rosetti v. Shalala, 12 F.3d
1216,1223 (3d Cir. 1993). This principle “follows from the often-repeated rule that under the
case or controversy requirement, federal courts are without power to decide questions that cannot
affect the rights of the litigants in the case before them.” Id. (internal quotations omitted). “If
one or more of the issues involved in an action become moot..., the adjudication of the moot
issue or issues should be refused.” New Jersey TpL Auth. v. Jersey Cent. Power & Light, 772
F.2d 25, 30 (3d Cir. 1985).

5

C.S

Case 2:20-cv-06170-JHS Document 12 Filed 01/29/21 Page 6 of 11

Elansari’s filings make clear that he lives in Philadelphia, not Chester County, and that
his probation is administered in Philadelphia. (ECF No. 2 at 3 “Plaintiff has acquired
[an]address in Philadelphia and has reported to Philadelphia probation ever since after the
address was approved by Centre County Probation.”).) Since his probation is no longer
administered by the 15th Judicial District in Chester County, there is no basis for him to seek
prospective relief. Even if Elansari intended to move back to Chester County, which he does not
allege, there is no plausible allegation that the 15th Judicial District would not comply with the
law as set forth by the Pennsylvania Supreme Court in Gass, now that the law has been clarified.
Accordingly, Elansari’s claims for prospective declaratory and injunctive relief are dismissed as
moot, leaving only his damages claims, which the Court will address below. See Hayes v.
Harvey, 903 F.3d 32, 40 (3d Cir. 2018) (en banc) (when tenant moved from housing unit, claims
seeking declaratory and injunctive relief to bar eviction were moot because he lacked a legally
cognizable interest in the outcome of the case); Bellocchio v. New Jersey Dep ’t of Envtl. Prot.,
602 F. App’x 876, 879 (3d Cir. 2015) (per curiam) (“As an initial matter, Bellocchio’s claims
for injunctive relief against all Defendants are moot, as the Bellocchios moved from their
home.”).
B. Claims Against the 15th Judicial District & Chester County
Elansari’s § 1983 claims for money damages against the 15th Judicial District and Chester
County appear to be based on what Elansari believes is a policy of not complying with either the
United States Constitution or Pennsylvania law in administering probation of those who hold
medical marijuana cards. Notably, although Elansari’s papers suggest that he intended to
procure a medical marijuana card, it is not clear whether he ever obtained one. Nor does

6

C6

Case 2:20-cv-06170-JHS Document 12 Filed 01/29/21 Page 7 of 11

Elansari allege that he was charged with violating his probation because he used marijuana on a
medical basis after receiving a card.
Nevertheless, leaving these pleading issues aside, Elansari has not stated a claim against
the 15th Judicial District. “To state a claim under § 1983, a plaintiff must allege the violation of a
right secured by the Constitution and laws of the United States, and must show that the alleged
deprivation was committed by a person acting under color of state law.” West v. Atkins, 487 U.S.
42, 48 (1988). The Eleventh Amendment bars suits against a state in federal court when the state
has not waived that immunity. See Will v. Mich. Dep’t of State Police, 491 U.S. 58, 65-66
(1989). “Pennsylvania’s judicial districts, including their probation and parole departments, are
entitled to Eleventh Amendment immunity.” Haybarger v. Lawrence Cty. Adult Prob. & Parole,
551 F.3d 193, 198 (3d Cir. 2008) (citing Benn v. First Judicial Dist. of Pa., 426 F.3d 233, 240-41
(3d Cir. 2005)). In other words, “all courts and agencies of the [Pennsylvania Unified Judicial
System] are part of the Commonwealth government rather than local entities[,]” and an
“individual district and its probation and parole department^” as “arm[s] of the State,” are
entitled to share in the Commonwealth’s immunity under the Eleventh Amendment. See id. The
Commonwealth of Pennsylvania has not waived that immunity here. See 42 Pa. Cons. Stat. §
8521(b). Additionally, the Commonwealth and its agencies are not considered “persons” for
purposes of § 1983. See Will, 491 U.S. at 69.
For these reasons, Elansari’s claims against the 15th Judicial District are barred by the
Eleventh Amendment. It appears Elansari has sued Chester County because that is the county in
which the 15th Judicial District is located. So, to the extent his is suing Chester County
separately from the 15th Judicial District, he cannot articulate a plausible basis for a claim

7

Case 2:20-cv-06170-JHS Document 12 Filed 01/29/21 Page 8 of 11

because Chester County is not liable for the policies of the 15th Judicial District, which are the
policies of the Commonwealth.
C. Claims Against Ragazzo
Elansari’s equal protection claim against Ragazzo also fails. This claim is based entirely
on a conversation that Elansari had with Ragazzo in January 2018, which may be characterized
as Ragazzo having represented that she would not honor Elansari’s medical marijuana card
should he obtain one, or implying that even if he were to obtain one, he would violate the terms
of his probation if he used marijuana. Elansari describes this as an equal protection violation.4
However, any equal protection claim is not plausible.
“The Equal Protection Clause of the Fourteenth Amendment commands that no State
shall ‘deny to any person within its jurisdiction the equal protection of the laws,’ which is
essentially a direction that all persons similarly situated should be treated alike.” City of
Cleburne v. Cleburne Living Ctr., 473 U.S. 432, 439 (1985) (quoting Plylerv. Doe, 457 U.S.
202, 216 (1982)). “[T]o state a claim for ‘class of one’ equal protection, a plaintiff must at a
minimum allege that he was intentionally treated differently from others similarly situated by the
defendant and that there was no rational basis for such treatment.” Phillips v. Cty. ofAllegheny,
515 F.3d 224, 243 (3d Cir. 2008). “Persons are similarly situated under the Equal Protection
Clause when they are alike ‘in all relevant aspects.’” Startzell v. City of Philadelphia, Pa., 533
F.3d 183, 203 (3d Cir. 2008) (quoting Norlinger v. Hahn, 505 U.S. 1,10 (1992)).

4 Elansari “has no constitutional right to use or possess medical marijuana.”
Elansari v. United States, Civ. A. No. 15-01461, 2016 WL 4415012, at *4 (M.D. Pa. July 11,
2016), report and recommendation adopted Elansari v. States, Civ. A. No. 15-1461, 2016 WL
4386145 (M.D. Pa. Aug. 17, 2016). Additionally, users of marijuana are not members of a
protected class entitled to heightened protection under the equal protection clause. See Elansari
v. United States, 823 F. App’x 107, 111 (3d Cir. 2020) (per curiam).
8

C2

Case 2:20-cv-06170-JHS Document 12 Filed 01/29/21 Page 9 of 11

As noted above, Elansari does not allege that he qualified for or obtained a medical
marijuana card, nor does he allege that Ragazzo, or anyone else, charged him with violating his
probation for using marijuana for medical reasons. Elansari also does not allege that he was
treated differently from other probationers who obtained or intended to obtain a medical
marijuana card, i.e., those who could be considered similarly situated. To the extent Elansari is
basing his claim on a suggestion that medical marijuana users are similarly situated to
probationers who “were prescribed other medications,” (ECF No. 2 at 3), that vague and
generalized conclusory allegation is insufficient to state a plausible equal protection claim.
At most Elansari has alleged a violation of state law, i.e., a failure to afford probationers
who are users of medical marijuana (including Elansari if he ultimately qualified) the immunity
afforded to them by Pennsylvania’s Medical Marijuana Act. But that does not necessarily
translate into a constitutional violation. See Wyatt v. Dep’t ofProb. & Parole, No. 19-CV-5460,
2020 WL 2307351, at *7 (E.D. Pa. May 8, 2020) (“[Ejven if this Court were to assume that the
statute at issue was violated, a violation of state law generally does not equate to a federal
constitutional violation.”). To the extent Elansari relies on the Pennsylvania Supreme Court’s
opinion in Gass, that case concerned an interpretation of Pennsylvania law; no constitutional
claims were discussed. In sum, Elansari has not alleged a plausible constitutional violation.
It is also worth noting that Elansari’s claim against Defendant Ragazzo, which is based
entirely on a January 2018 conversation, is time-barred. Pennsylvania’s two-year statute of
limitations applies to this claim. See 42 Pa. Cons. Stat. § 5524; Wallace v. Kato, 549 U.S. 384,
387 (2007). A claim accrues “when a plaintiff has a complete and present cause of action, that
is, when Pie] can file suit and obtain relief.” Dique v. N.J. State Police, 603 F.3d 181, 185 (3d
Cir. 2010) (quotations omitted). Elansari essentially alleges that Ragazzo’s statements

9

Case 2:20-cv-06170-JHS Documents Filed 01/29/21 Page 10 of 11

constituted an equal protection violation, or led him to believe his equal protection rights would
be violated, so he fled for Philadelphia. At that time, he was aware of the alleged violation of his
rights. Although the precise date of this conversation does not appear in Elansari’s Complaint, it
appears in Elansari’s Response to Ragazzo’s Motion to Dismiss, (ECF No. 6 at 5 (admitting he
was told by Ragazzo at a meeting in January 2018 that “they were not going to honor the pot
cards”);(,see also id at 7 & 9), and is therefore a judicial admission that may be considered by the
Court. See Parilla v. IAP Worldwide Servs., VI, Inc., 368 F.3d 269, 275 (3d Cir. 2004)
(discussing judicial admissions); Glick v. White Motor Co., 458 F.2d 1287, 1291 (3d Cir. 1972)
(“The scope of judicial admissions is restricted to matters of fact which otherwise would require
evidentiary proof.”); In re C.F. Foods, L.P., 265 B.R. 71, 87 (Bankr. E.D. Pa. 2001) (“Generally,
factual assertions admitted by a party in an answer or response are considered judicial
admissions which are conclusively binding upon the party who made them.”). Despite filing
numerous lawsuits in this Court, Elansari did not file his claims against Ragazzo until December
22, 2020, several months after the statute of limitations expired, so his claims against her are
time-barred.5
D. Motion to Amend
In dismissing a Complaint for failure to state a claim, a Court should consider whether
amendment is appropriate and grant leave to amend “unless amendment would be inequitable or
futile.” Grayson v. Mayview State Hosp., 293 F.3d 103, 108,110 (3d Cir. 2002). Here, in
addition to the Complaint, the Court has before it Elansari’s response to Ragazzo’s Motion to
Dismiss and his Motion to Amend with his proposed amended complaint. Other than omitting

5 To the extent Elansari intended to assert a retaliation claim against Ragazzo under the
Pennsylvania Human Relations Act or Pennsylvania tort laws, there is no basis for this Court’s
subjectmatter jurisdiction-oyer those claims. See 28U.S.C. § 1332(a).
10

C\D

Case 2:20-cv-06170-JHS Document 12 Filed 01/29/21 Page 11 of 11

the allegations about the resolution of his claims in state court and adding a discussion on
qualified immunity, the allegations are essentially the same as those in the initial Complaint.
(ECF No. 8.) However, the proposed amended complaint also adds “John Doe 1-4
(Supervisors)” as Defendants based on Elansari’s allegation that the “Defendants as an entire
organization - by and through its supervisors - intentionally ignored the Pennsylvania Medical
Cannabis law when it was passed and implemented and went as far as 2 years wrongfully and
unjustly prosecuting cannabis card holders unequally compared to other prescription holders.”
(Id. at 6.)
The defects identified above are not cured by Elansari’s proposed amended complaint.
Furthermore, he has not raised any particularized allegations against the unknown supervisors
that supports a plausible claim against them. See Rode v. Dellarciprete, 845 F.2d 1195, 1207 (3d
Cir. 1988) (“A defendant in a civil rights action must have personal involvement in the alleged
wrongs.”). Accordingly, the Court concludes that amendment would be futile here.
IV.

CONCLUSION
For the foregoing reasons, the Court will grant Elansari leave to proceed in forma

pauperis, grant his Motion to Strike, dismiss his Complaint and deny his Motion to Amend.
Having dismissed this case on other grounds, the Court declines to address Ragazzo’s qualified
immunity defense. An appropriate Order follows.
BY THE COURT:
/s/Joel H. Slomsky, J.
JOEL H. SLOMSKY, J.

11

cu

[J-42-2020]
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
SAYLOR, C.J., BAER, TODD, DONOHUE, DOUGHERTY, WECHT, MUNDY, JJ.
MELISSA GASS, ASHLEY BENNETT,
AND ANDREW KOCH, INDIVIDUALLY
AND ON BEHALF OF ALL OTHERS
SIMILARLY SITUATED,

No. 118 MM 2019
Appeal from the Extraordinary
Jurisdiction granted for this case which
concerns a challenge to a policy (the
Policy) prohibiting the use of medical
marijuana by individuals under the
supervision of the Lebanon County
Probation Services

Petitioners
v.

ARGUED: May 19,2020
52nd JUDICIAL DISTRICT, LEBANON
COUNTY,
Respondent

OPINION
DECIDED: June 18, 2020

CHIEF JUSTICE SAYLOR

This matter concerns a challenge to a local judicial district’s policy prohibiting the
use of medical marijuana by individuals under court supervision, such as probationers.
In 2016, the Pennsylvania General Assembly enacted the Medical Marijuana
Act.1 In a declaration of policy, it recognized that “[scientific evidence suggests that
medical marijuana is one potential therapy that may mitigate suffering in some patients
and also enhance quality of life.”

35 P.S. §10231.102(1).

The Legislature then

1 Act of April 17, 2016, P.L. 84, No. 16 (codified at 35 P.S. §§10231.101-10231.2110)
(the “MMA” or the “Act”).

Dv

announced its intention to provide a temporary program of access balancing patient
needs with safety considerations. See id. §10231.102(3)(i), (4).
Under the Act, “[n]othwithstanding any provision of law to the contrary, use or
possession of medical marijuana as set forth in [the] act is lawful within this
Commonwealth.”

Id. §10231.303(a).

Relevantly, medical marijuana may only be

dispensed, however, to patients who receive certifications from qualified physicians and
possess a valid identification card issued by the Pennsylvania Department of Health.
See id. §10231.303(b)(1)(i).2

A “patient” is a Pennsylvania resident who has an

enumerated serious medical condition and has met specified requirements for
certification. Id. §10231.103. Notably, there are many other regulatory requirements
and restrictions imposed throughout the Act.

See Class Action Petition for Review

Addressed to the Court’s Original Jurisdiction, 118 MM 2019 (Pa.), at ffl[37-63
(summarizing the MMA’s regulatory prescriptions).
And of particular relevance here, the MMA contains an immunity provision
protecting patients from government sanctions. See 35 P.S. §10231.2103(a). Per the
statute, no such individual “shall be subject to arrest, prosecution or penalty in any
manner, or denied any right or privilege,... solely for lawful use of medical marijuana ..
. or for any other action taken in accordance with this act.” Id.
In September 2019, the 52nd Judicial District - comprised of the Lebanon
County Court of Common Pleas (the “District”) -- announced a “Medical Marijuana
Policy” under the issuing authority of the president judge.

See Lebanon County

Probation Services Policy Nos. 5.1-2019 & 7.4-2019 (Sept. 1, 2019) (the “Policy”).
Centrally, the Policy prohibits “the active use of medical marijuana, regardless of

2 Parenthetically, the statute also allows for dispensation to qualified caregivers. See id.
§10231.303(b)(1)(H).
[J-42-2020] - 2

PZ

whether the defendant has a medical marijuana card, while the defendant is under
supervision by the Lebanon County Probation Services Department.”

Id. at 2.

The

following explanation was provided:
The medical marijuana card [issued under the MMA] is not a
prescription for medication, but rather a recommendation by
a physician as to a form of treatment. Medical marijuana
has not been approved as a MAT (medically assisted
treatment) by the FDA (Food and Drug Administration). The
use of medical marijuana may have benefits for some
medical conditions and under certain circumstances may be
helpful. Individuals, however, who are involved in substance
abuse and issues surrounding addiction which may have
played a part in the defendant’s criminal violations of law,
must be dealt with in a humane but effective manner so the
defendant can be rehabilitated ....
Under the Federal Controlled Substances Act (CSA) of
1970, marijuana is classified as a Schedule I substance. By
definition under the law, Schedule I drugs have a high
potential for abuse and dependency, with no recognized
medical use or value. Any marijuana possession, cultivation,
or use is a federal crime, subjecting a defendant to fines,
prison time, or both. Since marijuana use (medical or
recreational) is deemed illegal under Federal law, [and] the
Court and the Probation Department should not knowingly
allow violations of law to occur, the prohibition against such
use is required.
Id at 1 (emphasis in original).3 As originally stated, the Policy contained no exceptions.
Petitioners are individuals under the supervision of the probation
Lebanon County.

Represented by the American Civil Liberties

agency in

Union, they filed a

petition in the Commonwealth Court’s original jurisdiction challenging the validity of the
Policy, particularly in light of the MMA’s facial applicability to

persons under court

3 The federal Controlled Substances Act of 170, Pub. L. No. 91-513, 84 Stat 1242 is

Se^U3! cm§§801d971SeCti°nS ^ thr°U9h ^ °fTltle 21 the United States Code-

[J-42-2020] - 3

P3

supervision, as well as on account of the enactment’s immunity provision. Petitioners
included class-action allegations and sought declaratory and injunctive relief confirming
that the Act prohibits the District from penalizing medical marijuana patients who comply
with state law -- including those under court supervision -- and restraining enforcement
or implementation of the Policy.
Petitioners alleged that each suffers from serious and debilitating medical
conditions. After unsuccessful treatments with other therapies, Petitioners averred, they
secured lawful authorization, per the MMA, to use medical marijuana.

Further, the

petition asserted that:
[mjore than sixty people with serious medical issues in
Lebanon County must now decide whether to discontinue
their lawful use of a medical treatment that safely and
effectively alleviates their serious medical conditions, or risk
revocation of their probation and possible incarceration. It is
a choice between risking severe health consequences and
going to jail.
Class Action Petition, 118 MM 2019 (Pa.), at 1J2. Petitioners also stressed the lack of
any exceptions.
Separately, Petitioners filed an application for special relief in the nature of a
preliminary injunction.

Soon thereafter, the Commonwealth Court proceeded, sua

sponte, to transfer the case to this Court, concluding that it lacked jurisdiction to grant
the requested relief.

The District then filed its response in this Court opposing

preliminary injunctive relief.

It claimed, among other things, that Petitioners were

unlikely to prevail on the merits, arguing, inter alia, that the General Assembly didn’t
intend the MMA to override the courts’ ability to supervise probationers and parolees.
Moreover, the District assorted that its probation services office had experienced
disruptions and persistent difficulties when supervising probationers and parolees using
.medical-marijuana. In this Vein, the District elaborated as follows:__________________
[J-42-2020] - 4

PH

For instance, some individuals under court supervision with
medical marijuana prescriptions are unable to identify the
health condition that led to the medical marijuana
prescription. The Office also found a significant amount of
individuals under supervision, who possess a medical
marijuana card, that have a history of marijuana abuse
and/or their underlying charges are related to the unlawful
possession of marijuana. Additionally, drug testing for illicit
use of marijuana is also rendered meaningless if an
individual has a prescription for the legal use of medical
marijuana as the laboratory is unable to discern between
legal and illegal strands of marijuana.
Answer to Petitioners’ Application for Special Relief in the Nature of a Preliminary
Injunction, 118 MM 2019 (Pa.), at 2 (internal citations omitted).

The District also

maintained that it would be harmed if the Policy were to be restrained, particularly since
some drug treatment programs refuse to accept individuals who are using medical
marijuana.
Additionally, the District suggested that an October 7, 2019 revision to the Policy
dissipates any concern of harm to the affected individuals, since per the amendment
individuals aggrieved by the Policy may benefit from an exemption in the event they
prove, at a hearing, the “medical necessity” for their ongoing use of medical marijuana.4
See, e.g., Answer to Petitioners’ Application for Special Relief in the Nature of a
Preliminary Injunction, 118 MM 2019 (Pa.), at 6-7 (positing that the Policy “carefully
4 The revised version of the Policy provides that:
Any person on supervision who believes they are aggrieved by this policy
may petition the Court for a full and fair hearing to determine whether they
should be excused from its application to them. At that hearing, the
Petitioner will bear the burden of establishing to the Court the medical
necessity of their ongoing use of medical marijuana.
Brief for Respondent at 17 (quoting Lebanon County Probation Services Policy Nos.
5.1-2019 & 7.4-2019 (rev. Oct 7, 2019)).
[J-42-2020] - 5

Of

balances the need to rehabilitate offenders against the need for medical marijuana and
gives individual consideration for the Petitioners’ specific circumstances.”). According to
the District, this hearing would “[ojperationally” be part of a parole or probation
revocation proceeding. Id. at 4.
The District further noted that the use of medical marijuana conflicts with the
general conditions of probation and parole in Lebanon County, which require
compliance with all state and federal criminal laws and prohibit the possession and use
of alcohol and “any legal or illegal mind/mood altering chemical/substance.” Id. at 3.
The District attested that it has been the general experience that requiring adherence to
such general conditions assists with rehabilitation and reduces the risk of recidivism.
Ultimately, although the transfer by the Commonwealth Court was improvident,
this Court elected to exercise its extraordinary King’s Bench jurisdiction to consider the
petition.

We found that the case implicates substantial legal questions concerning

matters of public importance, particularly in light of the allegation that other judicial
districts have adopted, or are considering adopting, similar limitations on the use of
medical marijuana. The Order also stayed any enforcement or implementation of the
Policy pending further order and directed the Prothohotary to establish a briefing
schedule and list the case for oral argument. See Order, 118 MM 2019 (Pa. Oct. 30,
2019).
While there are many underlying factual matters alluded to in the petition for
review, we view the central question - namely, whether the Policy offends the MMA -as a legal one that may be decided without the need for fact-finding.
As a threshold matter, the parties dispute the appropriate framing of the question
presented. Petitioners, for their part, advance the issue of whether the Policy violates
the immunity provision of the MMA.

The District, on the other hand, restates the

[J-42-2020] - 6

0 (o

question presented as follows: “May a judicial district inquire into the nature of medical
marijuana use by a probationer?” Brief for Respondent at 5. Along these lines, the_
District pervasively asserts that Petitioners seek “absolute immunity” and an “allencompassing right to medical marijuana that cannot be questioned.” Id. at 11, 22; see
also id. at 6 (claiming that Petitioners ask this Court to “declare that simply having a
medical marijuana card shuts down any judicial inquiry” and “excuses [Petitioners] from
judicial oversight”); accord id. at 7,10-11,15-16, 18, 25-26, 35, 39-40, 42-43, 46.
To the extent that we would consider the issue on the terms stated by the
District, there would simply be no dispute, since Petitioners freely acknowledge that
they must comply with the MMA or risk sanctions. See, e.g., Class Action Petition, 118
MM 2019 (Pa.), at ffl[37-63. And they agree that the District, through its judges and
probation officers, may make reasonable inquiries to ensure their use of medical
marijuana is lawful. See, e.g., Reply Brief for Petitioners at 1, 3. We will therefore
consider the issue presented entirely on the terms framed by Petitioners.
Petitioners stress that the General Assembly made a policy decision, in the
MMA, to legalize the use of medical marijuana in the Commonwealth with the aim of
providing an effective treatment for patients with serious medical conditions. See, e.g.,
Brief for Petitioners at 22 (“Allowing courts to create additional hoops that patients must
jump through to avail themselves of the benefits of the MMA would usurp the will of the
legislature and open the door to additional judicially created prerequisites to patients’
eligibility under the Act.”). Drawing support from decisions of the highest courts of other
states, they also find the conflict between the Policy and the Act’s explicit immunity
provision to be manifest and disabling, relative to the Policy’s viability. See, e.g., ReedKaliher v. Hoggatt, 347 P.3d 136, 139 (Ariz. 2015) (invalidating a probation condition
restricting the use of medical marijuana); State v. Nelson, 195 P.3d 826, 833 (Mont.

[J-42-2020] - 7

Q7

2008) (holding that the state’s medical marijuana law “simply does not give sentencing
judges the authority to limit the privilege of medical use of marijuana while under state
supervision”).
With reference to the federal Controlled Substances Act, Petitioners assert that
federal law has no bearing on the Policy’s validity, since the District has no legal basis
to require that medical marijuana patients comply with federal prohibitions where the
Pennsylvania General Assembly has specifically displaced the prior state-law analogue.
According to Petitioners, reliance on federal law to supersede the MMA would
undermine Pennsylvania’s sovereignty.

See Brief for Petitioners at 10-11 (“The

Commonwealth has sovereign authority to allow its residents to use marijuana to treat
certain serious medical conditions without fear of arrest, prosecution, or the denial of
any right or benefit by the state." (emphasis in original); id. at 11 (‘That medical
marijuana remains illegal under federal law neither compels nor authorizes the courts of
this Commonwealth to ignore the will of the state legislature in favor of enforcing federal
law.”).5

The District, on the other hand, maintains that the Policy is grounded in salutary
rehabilitative aims, as it meshes with its general conditions of probation, which both
prohibit probationers from using alcohol, narcotics, and legal and illegal mind- and/or
mood-altering chemical substances and require adherence to state and federal law.
The District also reiterates its assertion that use of medical marijuana by probationers
has fostered management difficulties in the administration of probation and substantially
limits avenues for drug treatment. Centrally, the District maintains that, in enacting the

5 Petitioners’ position is supported by amici, Society of Cannabis Clinicians, Association
of Cannabis Specialists, Drug Policy Alliance, and Americans for Safe Access
Foundation, which credit Petitioners’ legal arguments and offer additional policy support.
[J-42-2020] - 8

MMA, the General Assembly did not intend to limit the courts’ traditional ability to
supervise probationers.
With regard to the decisions from other jurisdictions, the District envisions many
distinguishing factors. Chiefly, the District emphasizes that Pennsylvania is the only
state, among those referenced, in which the immunity provision of a medical marijuana
statute restrains punishment or denial of privileges “solely for” use of medical marijuana.
35 P.S. §10231.2103(a). Because Petitioners are not just alleged “patients” but also
probationers under court supervision, it is the District’s position that they are not being
subject to restrictions on their use of medical marijuana solely because they are
patients. Accord Brief for Respondent at 15 (“Section 2103(a)’s failure to contemplate
every particular situation in the life of a ‘patient’ that might cause friction with the MMA
does not support a blanket prohibition against judicial scrutiny of medical marijuana.”).
The District further observes that Section 2103(a) shields medical marijuana
users from “arrest” and “prosecution,” positing that these terms demonstrate an
intention to address events occurring prior to adjudication and sentencing by the
judiciary. Under the principle of statutory construction known as ejusdem generis, the
District posits, the ensuing catchall phrase - “or penalty in any manner” - must be
interpreted consistent with the preceding words “arrest” and “prosecution.”

See 1

Pa.C.S. §1903(b).
In Pennsylvania, the District explains, sentencing courts and the Board of
Probation and Parole always have enjoyed broad authority to ensure that probation
serves effectively to rehabilitate offenders and protect the public. According to the
District, the Policy strikes a reasonable balance between these objectives and
Petitioners’ asserted right of access to medical marijuana. See Brief for Respondent at
27 (“The Judicial District’s Medical Marijuana Policy is entirely consistent with the

[J-42-2020] - 9

legitimate aims of probation and does not unnecessarily restrict any fundamental right of
Petitioners.”). Ultimately, the District asks this Court to lift the stay restraining
implementation of the Policy and permit Petitioners to secure a hearing and create a
“developed record that fully accounts for Petitioners’ individual situations and their need
for rehabilitation.” Id. at 8-9.
In assessing whether the Policy conflicts with the immunity provision of the MMA,
we view the issue as one of statutory construction. We will therefore apply conventional
interpretive principles, as discussed throughout this Court's decisions.

See,

e.g., Norfolk S. Ry. Co. v. PUC, 621 Pa. 312, 328, 77 A.3d 619, 629 (2013). The
essential review encompasses close adherence to terms of a statute that are plain and
resort to other approaches of discernment only in the presence of ambiguity or
inexplicitness. See id. Where ambiguity or inexplicitness exists, the Court may afford
weight to other considerations, including the object to be attained by the statute under
consideration, the consequences of a particular interpretation, and contextual
considerations. See id.] see also Schock v. City of Lebanon,

Pa.

, 210

A.3d 945, 955-59 (2019) (highlighting the role of contextual considerations in the
construction of ambiguous statutes). See generally 1 Pa.C.S. §§ 1921-1939.
There is no disagreement that Petitioners are eligible to be “patients” under the
MMA, who are entitled to the immunity from penalty and cannot be denied of any right
or privilege solely for lawful use of medical marijuana. See 35 P.S. §10231.2103(a).
Responding to the District’s argument, however, that Petitioners do not qualify for
immunity since the Policy turns on an additional factor - namely, Petitioners’ status as
probationers - we find that this circumstance implicates a material ambiguity.
On the one hand, the District argues, colorably, that the integral involvement of
court supervision means that any punishment or denial of the privilege of probation

[J-42-2020] -10

0 i°

occurring under the Policy is not “solely for” a petitioner’s medical marijuana use. Id.
Conversely, as Petitioners contend, given that probation is the privilege in issue,
revocation on account of otherwise lawful medical marijuana use can be viewed as
punishment, or the denial of the privilege of probation, solely on account of such use.
Significantly, in various respects and measures, the MMA accords specific
treatment to criminal offenders. For example, under Section 614 of the Act, individuals
who have been convicted of drug offenses cannot be affiliated with a medical marijuana
dispensary or grower/processor. See 35 P.S. §10231.614. Similarly, those convicted of
certain drug offenses within a prescribed window of time are ineligible to serve as
“caregivers” {i.e., those designated by patients to deliver medical marijuana). See id.
§10231.502(b). Furthermore, in Section 1309, the General Assembly prohibited the use
of medical marijuana in any correctional institution, including one “which houses
inmates serving a portion of their sentences on parole or other community correction
program." Id. §10231.1309(2).
Notably, individuals in each of these categories, who are subject to the above
constraints, can nonetheless qualify as “patients” who are otherwise eligible to use
medical marijuana outside the restricted parameters. Accord Reed-Kaliher, 347 P.3d at
139 (observing that the state medical marijuana law “does not deny even those
convicted of violent crimes or drug offenses (so long as they are not incarcerated)
access to medical marijuana if it could alleviate severe or chronic pain or debilitating
medical conditions”).

And, to the degree that they satisfy the Act’s threshold

requirements and obtain medical marijuana cards, each is entitled to the immunity
afforded under Section 2103(a). Accord id.\ see also U.S. v. Jackson, 388 F. Supp. 3d
505, 513 (E.D. Pa. 2019) (“The Medical Marijuana Act carves out some exceptions,
such as prohibiting the use of medical marijuana in prisons, but it contains no exception

[J-42-2020] -11

T)IA

for individuals on probation or parole or under supervision. Without any such provision,
the Court concludes that the Act applies to those individuals just as it applies to any
other person.” (citation omitted)).
Section 1309(a) is particularly significant, in our judgment, since the Legislature
considered persons under court supervision and chose to impose constraints only upon
a specific subcategory (those physically present in a correctional institution). See 35
P.S. §10231.1309(2). As Petitioners persuasively assert, had the General Assembly
intended broader limitations, it would have been a straightforward matter for it to have
said this.6
We also respectfully differ with the District’s position that it may rely on its
general

conditions

of

probation

to

make

discretionary

determinations

about

probationers’ use of medical marijuana, beyond making inquires to determine whether
the usage is lawful under the MMA. Although the District highlights that the general
conditions’ restrictions on alcohol and mind- and/or mood-altering drugs go hand in
hand, the Legislature has not implemented a remedial scheme authorizing the use of
alcohol for treatment of serious medical conditions. Accord Nelson, 195 P.3d at 832
(“When a qualifying patient uses medical marijuana in accordance with the MMA, he is

6 The District’s reliance on the ejusdem generis principle to suggest that immunity
should apply only to pre-adjudicative measures has lesser force, in our view, in light of
the overarching policies underlying the Act. The General Assembly likely chose the
term? “arrest” and “prosecution” precisely because these are types of actions that lead
to punishment or the denial of privilege. Viewed as such, a probation revocation
hearing is of the same character.
In this respect, and more broadly, we also credit an argument by Petitioners that the Act
is remedial in nature, and thus, should be accorded a liberal construction. See 1
Pa.C.S. §1928(c). ________________________
[J-42-2020] -12

D'T

receiving (awful medical treatment. In this context, medical marijuana is most properly
viewed as a prescription drug.” (citation omitted)).
As to the general conditions’ prohibition against violations of federal law, while
possession and use of marijuana remains illegal under federal law even for medical
purposes, Petitioners correctly observe that the federal Controlled Substances Act does
not (and could not) require states to enforce it. See Brief for Petitioners at 34 (citing
Printz v. U.S., 521 U.S. 898, 935, 117 S. Ct. 2365, 2384 (1997) (“Congress cannot
compel the States to enact or enforce a federal regulatory program.”)); see also Ter
Beek v. City of Wyoming, 846 N.W.2d 531, 538 (Mich. 2014) (applying the Printz
rationale to conclude that a state can both comply with the federal Controlled
Substances Act and authorize the use of medical marijuana law as a matter of state
law). Moreover, through a continuing series of appropriations enactments since 2014,
Congress has prohibited the United States Department of Justice from utilizing allocated
funds to prevent states from “implementing their own laws that authorize the use,
distribution, possession, or cultivation of medical marijuana.” Jackson, 388 F. Supp. 3d
at 509 (quoting Consolidated Appropriations Act, 2019, Pub. L. No. 116-6, 133 Stat. 13
§537 (2019)).
Congress’s approach evinces a respect for the core principle of federalism
recognizing dual sovereignty between the tiers of government. See United States v.
Davis, 906 F.2d 829, 832 (2d Cir. 1990) (“The states and the national government are
distinct political communities, drawing their separate sovereign power from different
sources, each from the organic law that established it. Each has the power, inherent in
any sovereign, independently to determine what shall be an offense against its authority
and to punish such offenses.”). In enacting the MMA, the Pennsylvania Legislature
proceeded pursuant to its independent power to define state criminal law and promote

[J-42-2020] -13

P6

the health and welfare of the citizenry. See Whalen v. Roe, 429 U.S. 589, 603 n.30, 97
S. Ct. 869, 878 n.30 (1977) (citing, inter alia, Robinson v. California, 370 U.S. 660, 66465, 82 S. Ct. 1417, 1419-20 (1962)). While the circumstances are certainly uneasy -since possession and use of medical marijuana remains a federal crime — we find that
the District cannot require state-level adherence to the federal prohibition, where the
General Assembly has specifically undertaken to legalize the use of medical marijuana
for enumerated therapeutic purposes.
We are cognizant of the District’s concerns that medical marijuana use by
probationers may, in fact, cause difficulties with court supervision and treatment. As we
have observed previously; “The concern that unintended consequences may unfold are
prevalent relative to the promulgation of experimental, remedial legislation^]" Williams
v. City of Phila., 647 Pa. 126, 150, 188 A.3d 421, 436 (2018). Nevertheless, “[wjhere
the language of the governing statute is clear (or clear enough), ... the solution is
legislative - and not judicial - adjustment.” Id. at 150-51, 188 A.3d at 436.
Along these lines, the Supreme Court of Montana has aptly observed that,
“whether or not medical marijuana is ultimately a good idea is not the issue” before the
courts. Nelson, 195 P.3d at 833. Rather, in Pennsylvania, as elsewhere, the political
branch has decided to permit patients - including probationers -- to use medical
marijuana for specified, serious medical conditions, upon a physician’s certification.
The Policy, both in its original and amended forms, fails to afford sufficient recognition to
the status of a probationer holding a valid medical marijuana card as a patient, entitled
to immunity from punishment, or the denial of any privilege, solely for lawful use. See
35 P.S. §10231.2103(a).
As discussed in connection with our clarification of the question presented, this
case does not merely concern an effort on the part of the District (or its judges or

[J-42-2020] -14

pm

probation officials) to reasonably inquire into the lawfulness of a probationer’s use of
medical marijuana. Rather, both the original and amended Policies are constructed
upon a presumption that any and all use is impermissible. In terms of the amended
Policy, the Court deems the affordance of a hearing - in which probationers bear the
burden of overcoming this presumption by proving medical necessity and lawfulness of
use -- to be an insufficient countermeasure to the Policy’s foundationally inappropriate
presumption.
Certainly, judges and probation officials may make reasonable inquiries into the
lawfulness of a probationer’s use of medical marijuana. In this regard, the District’s
repeated assertions that it is rendered powerless to do so in absence of the Policy, see,
e.g., Brief for Respondent at 6, are not well taken.

For example, the Act itself

establishes a system whereby the validity of a medical marijuana card can be verified
through the Department of Health.

See 35 P.S. §10231.301 (a)(4)(H) (requiring the

Department of Health to maintain a statewide database enabling it to establish the
authenticity of identification cards).
Consistent with our interpretation of the MMA, however, judges and/or probation
officers should have some substantial reason to believe that a particular use is unlawful
under the Act before haling a probationer into court. Although ensuring strict adherence
to the MMA by those possessing a valid medical marijuana card may be difficult, the
alternative selected by the District of diluting the immunity afforded to probationerpatients by the Act is simply not a viable option.

The petition for declaratory and injunctive relief is GRANTED. For the reasons
stated above, the Policy as stated in its original and amended forms is deemed to be

[J-42-2020] -15

PIS'

contrary to the immunity accorded by Pennsylvania’s Medical Marijuana Act, and as
such, the Policy shall not be enforced.
Nothing in this Opinion restrains judges and probation officials supervising
probationers and others from making reasonable inquiries into whether the use of
marijuana by a person under court supervision is lawful under the Act. And nothing
impedes a revocation hearing or other lawful form of redress, where there is reasonable
cause to believe that a probationer or other person under court supervision has
possessed or used marijuana in a manner that has not been made lawful by the
enactment.
The request for class-action treatment is dismissed as moot.

Justices Baer, Todd, Donohue, Dougherty, Wecht and Mundy join the opinion.

[J-42-2020] -16

DI&

